No. 20-1709
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DAVID MING PON, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 12TH day of October, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7797
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 12, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1709
PON, DAVID MING
USA

LINDA T. COBERLY
WINSTON & STRAWN LLP
35 W. WACKER DRIVE
CHICAGO, IL 60601
312-558-8768
LCOBERLY@WINSTON.COM
DANIEL EPPS
ASSOCIATE PROFESSOR OF LAW
WASHINGTON UNIVERSITY IN ST. LOUIS
ANHEUSER-BUSCH HALL 573
ONE BROOKINGS DRIVE
SAINT LOUIS, MO 63130
314-935-3532
EPPS@WUSTL.EDU
MORRIS J. FODEMAN
WILSON SONSINI GOODRICH & ROSATI, PC
1301 AVENUE OF THE AMERICAS
40TH FLOOR
NEW YORK , NY 10019
212-999-5800
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM

STEFFEN NATHANAEL JOHNSON
WILSON SONSINI GOODRICH & ROSATI
1700 K STREET, NW
WASHINGTON, DC 20006
SJOHNSON@WSGR.COM
MICHAEL W. MCCONNELL
WILSON SONSINI GOODRICH & ROSATI, PC
650 PAGE MILL ROAD
PALO ALTO, CA 94304
650 493-9300
MMCCONNELL@WSGR.COM

